           Office of Inspector General




September 30, 2004

KEITH STRANGE
VICE PRESIDENT, SUPPLY MANAGEMENT

ROBERT L. OTTO
VICE PRESIDENT, CHIEF TECHNOLOGY OFFICER

SUBJECT: Audit Report – Preferred Portfolio Partnering Program
         (Report Number CA-AR-04-002)

This report presents the results of our self-initiated audit of the Postal Service’s
Preferred Portfolio Partnering (PPP) Program (Project Number 04XG003CA000).

Our overall audit objectives were to assess internal controls over the PPP program and
determine whether the program was achieving its stated objectives.

Through the PPP program, Postal Service officials identified, developed, and
implemented information technology (IT) business solutions for functional areas.
Postal Service officials also implemented procedures to ensure the PPP program
accomplished its objectives: Postal Service officials established contract performance
provisions, performed independent reviews of the statement of work, and developed
contract documentation to justify issuance of task orders. In addition, contract files
generally contained documentation as required by the PPP Performance Management
Plan. However, opportunities exist to enhance program oversight and maximize
IT savings. Specifically, since fiscal year 2001, Postal Service officials did not conduct
PPP program performance reviews to ensure the program was an effective and efficient
tool for obtaining IT business solutions. Additionally, Postal Service officials could not
readily determine whether the Postal Service received accurate research and
development credit from one of the PPP partners. We made two recommendations to
Postal Service management addressing these issues. Management agreed with our
recommendations and has initiatives in progress, completed, or planned addressing the
issues in this report. Management’s comments and our evaluation of these comments
are included in the report.

The Office of Inspector General (OIG) considers recommendation 1 significant, and
therefore requires OIG concurrence before closure. Consequently, the OIG requests
written confirmation when corrective action(s) are completed. The recommendation


   1735 N Lynn St.
   Arlington, VA 22209-2020
   (703) 248-2100
   Fax: (703) 248-2256
should not be closed in the follow-up tracking system until the OIG provides written
confirmation that the recommendation can be closed.

We appreciate the cooperation and courtesies provided by your staff during the review.
If you have any questions or need additional information, please contact Lorie Siewert,
director, Supply Management and Facilities or me at (703) 248-2300.


/s/ Colleen A. McAntee

Colleen A. McAntee
Deputy Assistant Inspector General
 for Financial Management

Attachment

cc: Mary Anne Gibbons
    Richard J. Strasser, Jr.
    John A. Rapp
    Margaret A. Weir
    Deborah J. Judy
    Carol A. Fagnani
    Steven R. Phelps
Preferred Portfolio Partnering Program                       CA-AR-04-002



                                         TABLE OF CONTENTS

Executive Summary                                                i

Part I

Introduction                                                     1

   Background                                                    1
   Objectives, Scope, and Methodology                            1
   Prior Audit Coverage                                          3

Part II

Audit Results                                                    4

    Program Assessment                                           4

    Opportunity to Enhance Program Oversight                     5
    Recommendation                                               6
    Management’s Comments                                        6
    Evaluation of Management’s Comments                          6

   Opportunity to Maximize Information Technology Savings        8
   Recommendation                                                9
   Management’s Comments                                         9
   Evaluation of Management’s Comments                           9

Appendix A. Abbreviations                                       10
Appendix B. Management’s Comments                               11
Preferred Portfolio Partnering Program                                        CA-AR-04-002



                                   EXECUTIVE SUMMARY
 Introduction                   This report presents the results of our self-initiated audit of
                                the Postal Service’s Preferred Portfolio Partnering (PPP)
                                program. Our overall objectives were to assess internal
                                controls and determine whether the program was achieving
                                its stated objectives.

 Results in Brief               Through the PPP program, Postal Service officials
                                identified, developed, and implemented information
                                technology (IT) business solutions for functional areas.
                                Postal Service officials also implemented procedures to
                                ensure the PPP program accomplished its stated objectives:
                                Postal Service officials established contract performance
                                provisions, performed independent reviews of the statement
                                of work, and developed contract documentation to justify
                                issuance of task orders as required by the PPP Program
                                Management Plan. However, since fiscal year 2001 Postal
                                Service officials did not conduct program performance
                                reviews to ensure the program continues as an effective
                                and efficient tool for acquiring IT business solutions.
                                Additionally, Postal Service officials could not readily
                                determine whether the Postal Service received the correct
                                amount of research and development (R&D) credit from
                                one PPP partner.

 Summary of                     We recommended Postal Service management conduct
 Recommendations                program performance reviews to measure the program’s
                                effectiveness and track awarded labor dollars to ensure the
                                R&D credit is accurate.

 Summary of                     Management agreed with the findings and
 Management’s                   recommendations. Management’s comments, in their
 Comments                       entirety, are included in Appendix B of this report.

 Overall Evaluation of          Management’s comments are responsive to the
 Management’s                   recommendations and actions taken or planned should
 Comments                       correct the issues identified in the findings.




                                                  i
Preferred Portfolio Partnering Program                                                  CA-AR-04-002



                                           INTRODUCTION
    Background                      The Postal Service’s Chief Technology Office (formally
                                    known as Information Systems) is responsible for providing
                                    information technology (IT) services to seven Postal Service
                                    portfolios. In fiscal year (FY) 1998, the Postal Service
                                    awarded seven ordering agreements to enterprise-wide
                                    IT-providers, creating the Preferred Portfolio Partnering
                                    (PPP) program. (See Table 1 for Partner Portfolio
                                    Assignments). The Postal Service established these
                                    long-term professional service ordering agreements to
                                    assist in delivering IT solutions and maximize the value
                                    obtained from its investments. This initiative is consistent
                                    with the Postal Service’s April 2002 Transformation Plan
                                    strategy to modernize purchasing procedures.

                                    Table 1: PPP Partner Portfolio Assignments

                                                          PPP Portfolio         PPP Partner
                                                      Finance                  Accenture
                                                      Human Resources          Accenture
                                                      IT Infrastructure        EDS1
                                                      Mail Operations          Accenture
                                                      Marketing                Accenture
                                                      Other Enabling           CSC2
                                                      Payroll3                 CSC

                                    Between March 1998 and December 2003, the Postal
                                    Service awarded 237 task orders totaling over $570 million
                                    through the PPP program. This amount represents
                                    21 percent of the total IT contracts4 awarded during the
                                    same period.

    Objectives, Scope,              Our overall objectives were to assess the internal controls
    and Methodology                 over the PPP program and determine whether the program
                                    was achieving its stated objectives. Specifically, we
                                    determined whether:




1
  Electronic Data Systems Corporation.
2
  Computer Sciences Corporation.
3
  The contract for the Payroll portfolio is no longer under the PPP program.
4
  Total dollars awarded for all IT contracts was approximately $2.8 billion.




                                                        1
Preferred Portfolio Partnering Program                                       CA-AR-04-002




                                    •    The PPP program achieved IT business solutions for
                                         entire functional areas.

                                    •    Contract performance provisions were established
                                         and enforced.

                                    •    A risk existed when the same partner developed and
                                         executed the statement of work.

                                    •    Contract files contained required documentation to
                                         justify the issuance of task orders.

                                    •    The Postal Service received the correct research and
                                         development (R&D) credit.

                                To accomplish our objectives, we interviewed program
                                managers, contracting officers, contracting officer’s
                                representatives, and business system contract analysts
                                involved with the PPP program. We also consulted with
                                Office of Inspector General experts and legal staff.

                                In addition, we reviewed applicable criteria in the Postal
                                Service Purchasing Manual and the PPP Program
                                Management and Performance Review plans. Furthermore,
                                we analyzed the Marketing, Mail Operations and IT
                                Infrastructure ordering agreements.

                                We judgmentally selected and reviewed 18 task orders
                                awarded between September 2000 and July 2003 (see
                                Table 2 for task orders reviewed).




                                                 2
Preferred Portfolio Partnering Program                                       CA-AR-04-002




                                Table 2: List of Task Orders Reviewed

                                                                                 Amount
                                       Portfolio         Task Order Number       Awarded
                                   Marketing           1BITTL-03-D-7381       $ 238,446
                                                       102591-01-D-0941       $ 7,939,027
                                                       102591-02-D-0831       $ 5,766,114

                                   IT Infrastructure   102591-02-D-1915       $    73,305
                                                       102591-02-D-0768       $17,901,407
                                                       102591-02-D-0706       $ 790,178

                                   Finance             102591-02-D-0899       $ 6,264,554
                                                       1BITTL-03-D-7884       $ 824,621
                                                       1BITTL-03-D-6436       $ 2,185,158

                                   Mail Operations     102591-01-D-2291       $61,178,942
                                                       1BITTL-03-D-1756       $ 1,075,895
                                                       1BITTL-03-D-1593       $ 2,679,460

                                   Payroll             102591-02-D-1531       $ 750,000
                                                       102591-01-D-2200       $ 3,063,205
                                                       102591-00 -D-2924      $ 4,817,032

                                   Human Resources     1BITTL-03-D-1019       $    76,198
                                                       102591-02-D-1310       $ 1,745,920
                                                       102591-02-D-2132       $ 2,241,514

                                   Total Awarded for Task Orders Reviewed     $119,610,976

                                This audit was conducted from December 2003 through
                                September 2004 in accordance with generally accepted
                                government auditing standards and included such tests of
                                internal controls as were considered necessary under the
                                circumstances. We discussed our observations and
                                conclusions with appropriate management officials and
                                included their comments where appropriate. We did not rely
                                on computer-generated data for this audit.

 Prior Audit Coverage           We did not identify any prior audits or reviews related to the
                                overall PPP program. However, several audits have been
                                performed on individual projects awarded under the
                                PPP ordering agreements.




                                                   3
Preferred Portfolio Partnering Program                                      CA-AR-04-002



                                         AUDIT RESULTS
 Program Assessment              The PPP program achieved its stated objective of
                                 establishing long-term professional service ordering
                                 agreements with enterprise-wide IT vendors to provide
                                 business solutions to entire functional areas. These
                                 partnerships allowed the Postal Service to create an
                                 extension of its internal resources, provide broader business
                                 knowledge, and improve its response to the portfolio clients’
                                 business needs.

                                 Postal Service officials also implemented internal control
                                 procedures to ensure the PPP program was an effective and
                                 efficient tool for acquiring IT business solutions: Postal
                                 Service officials established contract performance provisions
                                 to ensure satisfactory partner performance, performed
                                 independent reviews of the statement of work to ensure
                                 partner proposals met IT clients’ business needs, and
                                 developed contract documentation to justify the issuance of
                                 task orders, as required by the PPP Performance Review
                                 Plan.

                                 However, opportunities exist to enhance program oversight
                                 and maximize IT savings. Specifically, PPP program officials
                                 did not conduct required program performance reviews.
                                 Additionally, Postal Service officials could not readily
                                 determine whether a PPP partner provided the correct
                                 amount of R&D credit.

                                 As a result, Postal Service officials may not have sufficient
                                 information to make best-value decisions and may be paying
                                 for future R&D efforts that could have been offset by the
                                 R&D credit.




                                               4
Preferred Portfolio Partnering Program                                       CA-AR-04-002




 Opportunity to                  Since FY 2001, Postal Service officials did not conduct
 Enhance Program                 program reviews as required by the PPP Program
 Oversight                       Performance Review Plan. Instead, on a monthly basis,
                                 Postal Service senior management meets with the Chief
                                 Technology Officer to discuss the progress of all IT projects.
                                 However, we did not find any documentation that these
                                 meetings measure the PPP program’s effectiveness. If
                                 program performance reviews are not conducted, Postal
                                 Service officials cannot ensure the PPP program is an
                                 effective and efficient tool for achieving the client’s IT
                                 business needs.

                                 In February 1999, Postal Service officials developed the
                                 Performance Review Plan to monitor the PPP program’s
                                 effectiveness and efficiency. According to the Performance
                                 Review Plan, monitoring Chief Technology Office
                                 performance, including PPP partners, and assessing Postal
                                 Service IT value are key to the PPP program’s success.
                                 This plan requires Postal Service officials to periodically
                                 assess the value added by the PPP program. In addition,
                                 roles and responsibilities were established for conducting the
                                 program performance reviews. Monitoring the PPP program
                                 includes:

                                     •   Deliverable Reviews
                                     •   Evaluation Findings Collection Phase
                                     •   Program Technical Review
                                     •   Program Client Review

                                 Instead of conducting program performance reviews, in
                                 FY 2001, the Chief Technology Officer implemented monthly
                                 meetings to discuss the status of individual projects within
                                 the IT group. In these meetings, senior management
                                 reviews information from Program Tracking Reporting
                                 System reports that provide financial data and a status of all
                                 IT projects. However, these reports do not address the
                                 effectiveness of the PPP program as a tool for achieving
                                 program goals and ensuring the deliverables are obtained in
                                 a cost effective manner.

                                 When performance reviews are not conducted on the PPP
                                 program, Postal Service officials cannot adequately assess
                                 whether the PPP program is an effective tool to meet IT
                                 goals; conform to the investment value; or determine



                                                5
Preferred Portfolio Partnering Program                                      CA-AR-04-002



                                 whether services provided by the PPP partners meet
                                 program goals, contractual requirements, and are delivered
                                 in a cost effective manner.

                                 For example, one of the PPP partners did not perform as
                                 required under the task order terms for the period of
                                 December 2002 through March 2003. Specifically, help desk
                                 agents were not answering calls efficiently or resolving
                                 customer calls in a timely manner, and agents were not
                                 appropriately trained to handle customer call issues.
                                 Nonetheless, the Postal Service paid the entire billed
                                 amount, even though substandard services were rendered
                                 during this period. Conducting program reviews could have
                                 reduced the risk that the Postal Service paid for substandard
                                 work.

                                 In a meeting on July 27, 2004, Postal Service management
                                 agreed that the Chief Technology Officer monthly meetings
                                 do not assess the effectiveness of the PPP program and that
                                 management should take a more active role in conducting
                                 the quality reviews of the PPP program

 Recommendation                  We recommend the Vice President, Chief Technology
                                 Officer, direct the IT Value Manager to:

                                     1. Complete performance reviews as required by the
                                        Preferred Portfolio Partnering Program Performance
                                        Review Plan.

 Management’s                    Management agreed with the recommendation and will
 Comments                        update the internal PPP Performance Review
                                 Implementation Plan to reflect the contractual requirement for
                                 performing a more in-depth annual performance review.
                                 Also, management plans to complete the first review
                                 covering FY 2004 in the first quarter of FY 2005.

 Evaluation of                   Management’s comments are responsive to the
 Management’s                    recommendation. Management’s planned action to perform
 Comments                        in-depth annual performance reviews of the PPP program
                                 should address the issues identified in the finding.

                                 We did not comment on the internal PPP Performance
                                 Review Implementation Plan interval for conducting
                                 performance reviews, currently at four to six months. The
                                 Postal Service’s commitment to update the internal PPP



                                               6
Preferred Portfolio Partnering Program                                     CA-AR-04-002



                                 Performance Review Implementation Plan to conduct
                                 in-depth quality reviews on an annual basis meets the intent
                                 of the recommendation. Therefore, we agree to the
                                 proposed revision.

                                 In addition, we recognize that the Postal Service has
                                 conducted monthly performance reviews and that they are
                                 cost efficient. However, we maintain that these reviews do
                                 not assess the effectiveness of the PPP program itself, and
                                 therefore in-depth quality reviews of the PPP program are
                                 necessary.




                                               7
Preferred Portfolio Partnering Program                                       CA-AR-04-002




 Opportunity to                  The Postal Service could not readily determine whether a
 Maximize Information            PPP partner provided the correct amount of R&D credit. This
 Technology Savings              occurred because Postal Service officials did not separately
                                 track awarded labor dollars under each task order.
                                 Therefore, the Postal Service may be paying for future R&D
                                 efforts that could have been offset by these credits.

                                 In 1998 during contract negotiations, the Postal Service
                                 accepted a PPP partner’s proposal to establish a fund to
                                 subsidize future R&D projects. The fund tracks R&D credits
                                 but does not contain actual dollars. These R&D credits are
                                 calculated based on a percentage of cumulative labor dollars
                                 awarded within a contract year for four of the seven portfolios
                                 under the PPP program. Postal Service officials could then
                                 apply these credit amounts toward future R&D contracts
                                 awarded to the partner. The PPP partner computed the
                                 credit and reported the R&D balance to the Postal Service on
                                 a bimonthly basis.

                                 Postal Service officials tracked awarded labor dollars until
                                 2001 to verify the accuracy of the R&D fund balance.
                                 However, after 2001, they relied on the PPP partner’s data to
                                 review the R&D fund calculations since awarded labor dollars
                                 were no longer separately tracked under each task order.

                                 Despite this data limitation, Postal Service officials, in
                                 conjunction with a contractor, performed limited reviews on
                                 the R&D fund between 2001 and 2002 to determine whether
                                 the PPP partner had accurately calculated the R&D credit.
                                 Historically, these limited reviews indicated the PPP partner
                                 understated the R&D credits as follows:

                                     •   The PPP partner incorrectly calculated the R&D credit
                                         on a per portfolio basis instead of applying the
                                         percentages to total awarded labor dollars for the
                                         entire quarter. This resulted in an understated credit
                                         of $635,917.

                                     •   Six task orders were listed in a Postal Service Report
                                         but were not included in the partner’s R&D funds




                                                8
Preferred Portfolio Partnering Program                                                     CA-AR-04-002



                                            report. This resulted in an understated R&D credit of
                                            between $196,151 and $534,228.5

                                        •   Calculation errors resulted in an understatement of the
                                            R&D fund by $2,600.

                                   If the R&D fund is monitored using a more in-depth
                                   structured process and definitive timeline, the Postal Service
                                   could further maximize IT savings.

    Recommendation                 We recommend the Vice President, Supply Management,
                                   direct the IT Category Management Center Manager to:

                                        2. Establish an appropriate process to monitor awarded
                                           labor dollars for all task orders to enable a review of
                                           the research and development fund.

    Management’s                   Management agreed with the recommendation and
    Comments                       implemented a centralized database within the IT Category
                                   Management Center for tracking awarded labor dollars under
                                   each task order, effective September 1, 2004. Additionally,
                                   management plans to review and reconcile the research and
                                   development fund bimonthly.

    Evaluation of                  Management’s comments are responsive to the
    Management’s                   recommendation and actions taken or planned should correct
    Comments                       the issues identified in the finding.

                                   We recognize that Postal Service officials identified,
                                   addressed, and reconciled the understated research and
                                   development fund credit amounts. The specific examples
                                   were included to show that historically the PPP partner’s data
                                   has not always been accurate.




5
 Because the calculation is based on a percentage of cumulative labor dollars, the exact amount is dependent
upon the contract year and associated labor dollars awarded.




                                                      9
Preferred Portfolio Partnering Program                           CA-AR-04-002



                          APPENDIX A. ABBREVIATIONS

FY                              Fiscal Year
IT                              Information Technology
OIG                             Office of Inspector General
PPP                             Preferred Portfolio Partnering
R&D                             Research and Development




                                            10
Preferred Portfolio Partnering Program           CA-AR-04-002



                 APPENDIX B. MANAGEMENT’S COMMENTS




                                         11
Preferred Portfolio Partnering Program        CA-AR-04-002




                                         12
